No. 20-1473

In the Supreme Court of the United States
ALAN CRITTENDEN,
v.

Petitioner,

MARIKO CRITTENDEN,
Respondent.
CERTIFICATE OF SERVICE
PETITION FOR REHEARING

CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF SERVICE
OF PETITION FOR REHEARING
Pursuant to Supreme Court Rules and further Orders
of the Court dated April 15, 2020 undersigned sent on
the below date by first class mail and/or by email if
electronic service was consented to a copy of the
signed and filed Petition for Rehearing of Petition for
Writ of Certiorari to the Georgia Supreme Court along
with all required attachments in the above-captioned
case to counsel as follows:
ATTORNEYS FOR RESPONDENT
DOUGLAS JOHN HASSINGER, ESQ.
Georgia State Bar Number: 336210
The Siemon Law Firm, P.C.
347 Dahlonega St.
Cumming, GA 30040
(770) 888-5120
Respectfully submitted,
CARSON J. TUCKER, ESQ.
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org
Dated: July 23, 2021

